1
CERTIFICATE OF SERVICE

The undersigned certifies that on April 30, 2020, he served, or will have served
by May 1, 2020 (Law Day), either by
1) putting in the mail by way of the United States Postal Service, first-class mail
(service on April 30, 2020); or
2) electronic service by means of the Supreme Court electronic filing system, or by
an e-mailed courtesy copy if the Supreme Court electronic filing system somehow
fails to serve copies (service on April 30, 2020, if possible, or at the latest by the next
day, May 1, 2020):
re 19-840, the Brief of Amicus Curiae David Boyle in Support of Petitioners,
addressed to the counsel listed below, each receiving an electronically served copy
(no counsel objected to electronic service), as per Supreme Court Order 598 U.S. —,
April 15, 2020, available at https://www.supremecourt.gov/orders/courtorders/
041520zr_g204.pdf (requesting that copies to parties be served electronically, not by
paper);
and to the Court, is presently putting in the mail, with this Certificate, forty-one
paper copies of that document, one of them being unbound.

List of counsel:
Samuel Passchier Siegel
Counsel of Record
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6269
sam.siegel@doj.ca.gov
Counsel for Petitioners California, et al. in 19-840
Noel J. Francisco
Counsel of Record
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents United States, et al. in 19-840

2

Kyle Douglas Hawkins
Counsel of Record
Texas Attorney General’s Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700
kyle.hawkins@oag.texas.gov
Counsel for Respondents State of Texas, et al. in 19-840
Robert Earl Henneke
Counsel of Record
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
rhenneke@texaspolicy.com
Counsel for Respondents Neill Hurley and John Nantz in 19-840
Douglas Neal Letter
Counsel of Record
219 Cannon House Office Building
Washington, DC 20515-6532
(202) 225-9700
douglas.letter@mail.house.gov
Counsel for Respondent U.S. House of Representatives in 19-840

April 30, 2020

Sincerely and respectfully,
David Boyle
Counsel of Record
P.O. Box 15143
Long Beach, CA 90815
dbo@boyleslaw.org
(734) 904-6132

